No. 19-293
In the

Supreme Court of the United States
TKC AEROSPACE INC.,
Petitioner,
v.
CHARLES TAYLOR MUHS,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Fourth Circuit

BRIEF IN OPPOSITION

Daniel M. Press
Counsel of Record
Chung & Press, P.C.
6718 Whittier Avenue, Suite 200
McLean, Virginia 22101
(703) 734-3800
dpress@chung-press.com
Counsel for Respondent

292257

1

BRIEF IN RESPONSE TO PETITION FOR
CERTIORARI
ARGUMENT

Petitioner contends that the 4th Circuit in the
decision below created a circuit split, disagreeing with
In re Miller, 156 F.3d 598, 603 (5th Cir. 1998). It did
not. The 4th Circuit did not cite Miller, nor any other
case addressing the supposed subjective/objective
split. Why? Because it found that the meaning of
“willful and malicious” in the Alaska judgment did not
meet either standard because it addressed only the
willfulness of the act, not the injury.
TKCA's attempts to define "willful and
malicious" in Alaska's version of the UTSA as
identical to § 523(a)(6) fall short of its burden.
It refers to an Alaska Supreme Court decision
stating, "[a]n act is willful if it is done
intentionally and purposefully, rather than
accidentally or inadvertently." Walt's Sheet
Metal v. Debler, 826 P.2d 333, 336 (Alaska
1992). It then contends that the Alaska court
necessarily
determined
that
Appellant
"intentionally
and
purposefully
misappropriated TKCA's trade secrets, which is
sufficient to meet the Fourth Circuit standard
for willfulness." Appellee's Br. 11. But Geiger
and Duncan specifically instruct that it is not
enough to have "a deliberate or intentional act
that leads to injury." Geiger, 523 U.S. at 61.

2

Rather, a bankruptcy court must specifically
find a deliberate and intentional injury.
Therefore, even if TKCA is correct that the
Alaska court decided Appellant intentionally
and purposefully misappropriated TKCA's
trade secrets, that is still not enough. It must
have taken the additional step of finding that
Appellant, in so doing, intended for TKCA to be
injured by that misappropriation.
___ F.3d at ___, Apx. 23a-24a.
of intent to injure at all.

There was no finding

This was recognized in In re Miller itself:
Merely because a tort is classified as
intentional does not mean that any injury
caused by the tortfeasor is willful. This case
illustrates
the
distinction,
since
misappropriation of proprietary information
and misuse of trade secrets are wrongful
regardless of whether injury is substantially
certain to occur. See, e.g., Restatement (Third)
Unfair Competition § 40(b) cmt. c ("[A]ny
exploitation of the trade secret that is likely to
result in injury to the trade secret owner or
enrichment to the defendant is a `use' under
this section."). Misuse of trade secrets is not
precisely like stealing funds from a till, because

3

the tortfeasor's gain is not inevitably a loss to
the legal owner of the secret.1
156 F.3d at 604. There was no determination in the
underlying litigation of an intent to injure under an
objective standard, subjective standard, or any
standard. In fact, Petitioner’s own characterization
shows that, by stating “In the case at bar, the debtor
inflicted injury on TKCA when the debtor ‘willfully
and maliciously’ stole TKCA trade secrets as part of a
scheme to take TKCA’s business.” Petition at 1. The
act is alleged to be “willful and malicious,” but
Petitioner does not even state, in this iteration, that
the injury was willful or malicious. Later in the same
paragraph, it similarly refers to the act, not the injury:
“debtor’s willful and malicious theft in violation of the
Uniform Trade Secrets Act.” As recognized in Miller,
this is not enough.
Petitioner later formulates the facts as stating
that the Alaska and Arizona courts “found that
Respondent Charles Taylor Muhs (“Muhs”) willfully
and maliciously stole trade secrets from his employer,
Petitioner TKC Aerospace, Inc. (“TKCA”), as part of a
1

Petitioner asserts (Petition at 5) that “Until the Fourth Circuit’s
decision that is the subject of this appeal, no court had held that
that a debtor found liable for a willful and malicious theft of trade
secrets under the UTSA could escape the Bankruptcy Code’s
prohibition on discharging debts arising from a “willful and
malicious injury by the debtor to another”. Indeed Miller, the
case on which Petitioner most relies, held as much in the passage
quoted above.

4

plan to divert on-going contracting opportunities to a
competitor.” Again, the assertion is that the act was
willful and malicious, not the injury.
Furthermore, the Arizona court applied as the
definition of “willful and malicious” “[s]uch
intentional acts or gross neglect of duty as to evince a
reckless indifference to the rights of others on the part
of the wrongdoer, and an entire want of care so as to
raise the presumption that the person at fault is
conscious of the consequences of his carelessness.”
Appendix to Petition, 148a. This is precisely the
recklessness standard rejected in Geiger, in addition
to which it is directed to the act, not the injury.
Nowhere is there a finding of willful and malicious
intent to injure under either a subjective or objective
standard.
This case simply does not present the question
that Petitioner says it does – whether the objective or
subjective standard applies – because neither
standard is met here. Accordingly, this Court should
deny certiorari.

5

CONCLUSION
Wherefore, Respondent respectfully requests
that certiorari be denied.
Respectfully submitted,
DANIEL M. PRESS

Counsel of Record

CHUNG & PRESS, P.C.
6718 Whittier Avenue, Suite 200
McLean, Virginia 22101
(703) 734-3800
dpress@chung-press.com

Counsel for Respondent

